DOE F 1325.8
(4/93)

                                                                              Department of Energy
United States Government                                                      Office of Inspector General

memorandum
    DATE:      June 15, 2001
REPLY TO
 ATTN OF:      IG-40
SUBJECT:       Letter Report on Environment, Safety & Health Issues at the Ashtabula Environmental
               Management Project, INS-L-01-05
        TO:    Manager, Ohio Field Office

               The purpose of this report is to make you aware of issues that came to our attention
               during recent Office of Inspector General (OIG) inspection activity at the Ashtabula
               Environmental Management Project (Ashtabula). Inspectors visited Ashtabula during
               the week of April 30, 2001, and we concluded that certain conditions at Ashtabula
               may require immediate management attention. During our visit, OIG Inspectors
               provided daily briefings to the Department’s Ashtabula Site Manager to allow for
               immediate corrective actions as deemed necessary by the Site Manager. The Office of
               Inspector General is continuing its work at the Ashtabula site.

               During our visit to Ashtabula, we physically inspected buildings and equipment owned
               by the Department and located on property owned by Earthline Technologies
               (Earthline). We also physically inspected Earthline-owned buildings, known as
               “Plant 2,” where the Department leases storage space. Our inspection found
               conditions that indicated questionable contract implementation and administration by
               both Earthline and Department officials. As a result, there are serious concerns about
               worker safety and health, and conservation of Government equipment and resources.

               Leaking Machinery

               One concern arose during our physical inspection of the “Field Scale Compression
               Forming Unit,” informally referred to on-site as the “brick machine.” This machine
               stabilizes hazardous soil through combining soil and fly ash into compacted bricks.
               The brick machine is now stored at Plant 2. One Earthline employee described this
               area as “abandoned,” and noted that the area is seldom entered. The brick machine
               consists of a truck-type frame that cost almost $56,000. Earthline upgrades brought
               the Department’s total estimated cost for the brick machine to over $517,000.

               During an OIG physical inspection of the brick machine, Inspectors found an oily
               substance had leaked from the machine and spread across the floor under the machine,
               yet no spill cleanup equipment was observed in the area. The OIG determined that at
               least one Earthline employee had reportedly observed the leak, yet took no action. We
               also observed a kerosene storage tank, described as a 500 gallon unit – partially full,
               and an expired fire extinguisher, in close proximity to the brick machine.
                                             2

OIG Inspectors were told that the oily substance under the brick machine was hydraulic
oil, and they were provided with a Material Safety Data Sheet in response to questions
about the leaking fluid. According to the data sheet, new hydraulic oil is a non-regulated
substance, but once used the hydraulic oil may be regulated under the Resource
Conservation and Recovery Act (RCRA).

Based on our notification to management, a cleanup technician with spill control
equipment was deployed. According to the cleanup technician, the brick machine was
found to be leaking from multiple locations.

In addition to environmental compliance concerns, we are concerned that Government
equipment of such value would not be inspected frequently enough to detect leaks. The
fact that the machine is not being used and is degrading raises questions about its need and
retention by the Department. We are also concerned that contractor employees had not
reported this leak and that the Department may be liable to pay Earthline for cleanup of
any leaks, releases, or spills onto Earthline property. Finally, we are concerned that fire
protection in the area of the brick machine, given the proximity of the kerosene tank and
the expired fire extinguisher, may not be sufficient to protect an asset of such value.

The OIG concluded that Ohio Field Office management should review this situation and
determine whether immediate actions are necessary to protect the environment and the
Government’s investment in this equipment, and to limit the Department’s liability with
respect to the leased area.

Storeroom Safety

Another concern relates to an area leased by the Department from Earthline for storage of
Government consumable supplies. The Earthline Operations Division manages the
storeroom and consumable supplies for the Department.

We found that this area contains equipment as well as supplies. The equipment included
two chart recorders, multiple boxes of radiation detectors labeled “out of service,” two
tanks marked “Sensitive” and “Methane/Argon Gas,” and one computer printer marked
“Sensitive.” Other examples of equipment included soil washing machine pumps, a
satellite teleconferencing system, and two heavy-duty lifting devices.

We also observed what appeared to be fire and electrical safety hazards in the storeroom,
such as flammable and combustible liquids stored on the floor in front of a cabinet, large
quantities of paper products, operational heaters (ignition sources), multiple corroded
480 volt electrical boxes (untagged to show status-possible ignition sources/safety
hazards), corroded sprinkler heads, and pallets of flammable/combustible liquids against
one wall. Also, the storeroom and various side rooms with doors opening off the interior
of the storeroom contained large quantities of paper products which are fire fuel sources.
Multiple drums of metallic shavings marked “Flammable” were in an area of the building
adjacent to the storeroom, although not in DOE leased space. We asked an area worker
about these drums and were told they contained “extremely flammable titanium
                                            3

shavings” that are the property of Earthline. On May 2, 2001, we returned to the
storeroom to perform a partial inventory of the storeroom’s contents and to take
photographs. A list of items found in the partial inventory is attached, as well as
photographs. The inventory list and photographs 1 through 8 illustrate the potential fire
and electrical hazards and also the quantities of equipment and supplies.

A senior official in Earthline’s Office of Environment, Safety and Health advised us that
the facility is under the jurisdiction of the U.S. Occupational Safety and Health
Administration (OSHA), and therefore must comply with OSHA regulations. These
regulations set forth specific storage and fire/electrical safety requirements. We are
concerned that the storeroom conditions may not meet OSHA requirements.
Additionally, storing equipment in an area outside of the property manager’s
responsibility is a control weakness with respect to the conservation and efficient
utilization of Department equipment.

Wastewater Treatment Plant Contamination

Another concern relates to a Department wastewater treatment plant stored on Earthline
Plant 2 property in an area leased by the Department (see photograph 9). This plant was
transferred to Ashtabula from the Department’s site in Grand Junction, Colorado, in
January 1999. Our physical inspection revealed a light coating of yellow dust on the
majority of the plant equipment. A September 30, 1998, report prepared by an Earthline
(then RMI Decommissioning Project) contractor employee in preparation for acquiring
the plant described the plant as “lightly contaminated with uranium and radium from mill
tailings.” Earthline documents show that the plant was delivered in January 1999, but
was not surveyed by the Earthline health physics technicians until November 1999 at
which time it was found to contain significant radioactive contamination. A
contamination survey report indicated that contamination control restrictions were not
placed on the area where the plant was stored until after the November 1999 survey.

Photograph 10 shows a close up of one of many “resin” columns associated with the
wastewater treatment plant. We inspected the columns and found them to contain a
buildup of yellow dust. Our attempts to determine the exact nature of this dust during our
visit were unsuccessful. Following our site visit, Earthline surveyed the columns and
found that radioactive contamination levels were within acceptable levels. However, this
survey did not sample or analyze the yellow dust in the columns to determine whether it
was toxic or hazardous. We were told that the November 1999 radiation survey, which
resulted in the posting of the room as a controlled area, was conducted after a safety
concern was raised. However, Plant 2 is not a Department of Energy facility, and we
were informed that Earthline’s Nuclear Regulatory Commission/Ohio Department of
Health (NRC/ODH) license to conduct radioactive operations does not cover Department
of Energy contamination at Plant 2. Therefore, we could not determine under what
authority or procedures the room containing the wastewater treatment plant was
designated as “controlled” or if those procedures were sufficient. In discussing this issue
with the Department’s Site Manager he indicated that, if the wastewater treatment plant is
contaminated with radioactivity, then he would be concerned that storage of the plant on
                                             4

Earthline property in Plant 2 could violate the NRC/ODH radioactive operations license
which covers Department operations at the Earthline Extrusion Plant. This situation also
raises concerns about employee exposure during the time from receipt in January 1999
until the area was posted in November 1999.

An additional concern with the wastewater plant relates to a tank which is labeled
“Barium Chloride.” Barium is regulated under RCRA. The tank in question appeared to
contain some residues, but for safety reasons we did not closely inspect the tank (see
photograph 11). We concluded that Ohio Field Office management may want to consider
reviewing the storage of the wastewater treatment plant for safety, liability, and
regulatory concerns and consider sampling and analyzing the material in the resin
columns and Barium tank so as to properly characterize any hazards or contamination.
Photographs of the wastewater treatment plant, resin columns, and Barium tank are
attached to this report.

Leaking Evaporator Storage Tank

During our physical inspection of the Department’s Soil Washing Plant located on
Earthline property, we found thick black liquid draining from a flange in evaporator
storage tank 12. A spill pan had been placed beneath the flange and had overflowed
causing the liquid to run under and around tank 12. Although a technician had placed
absorbent material around the tank, the leak was unattended and the black liquid had
saturated the absorbent material in places and was entering a floor drain (see photographs
12 through 13).

Personnel in the Soil Washing Plant referred to the leaking liquid as “evaporator liquor.”
This liquid is a concentrated residue from soil washing operations, and is presumed to
contain concentrated radionuclides that are washed from the site’s soil during cleanup
operations. We are concerned that this leak was unattended and was not being
administratively controlled, such as through the use of ropes or postings. Although the
area in question is inside a controlled area, soil washing plant personnel told us that they
were not always present in the area. Therefore, we concluded that instituting
precautionary administrative controls would be consistent with the Department’s policy
to limit occupational radiation exposures to a level as low as reasonably achievable.
Further, in accordance with Department policies, such controls would assist with
preventing the transfer of contamination from the area by employees and visitors.

We returned to inspect the cleanup of the leak the next day, May 2, 2001, and found the
tank again unattended. The original leak had been cleaned up, but seepage from under
the tank was continuing to puddle and run onto the floor and into the floor drain. In
interviews with personnel responsible for the cleanup, we were told that the leak had
been progressing for about two days. The personnel responsible told us that they had left
the leak unattended and said that they did not feel it was important to complete the clean
up. These personnel stated that they were unaware of site procedures for leak and spill
reporting/cleanup or for radiation control. An employee responsible for the tanks could
not produce any inspection procedures or documentation for ensuring the tanks did not
                                              5

leak. Photographs of the leak and cleanup are attached to this report (see photographs 12
through 14).

We were informed that the Soil Washing Plant cost the Department approximately
$4 million. A senior official in Earthline’s Office of Environment, Safety and Health told
us that Department equipment is being inspected for leaks, releases, and spills by the
site’s security officers, in addition to observations by other contractor employees.
However, in reviewing security logs, we noted that officers do not note which specific
equipment they have inspected, only that they have completed a security “round.”
Moreover, the security inspections did not rectify conditions in the storeroom, the leaking
brick machine, or result in attention to the leak in evaporator storage tank 12.

Based on our observations, we are concerned that the “evaporator liquor” was reaching
the floor drain. Site personnel advised that the floor drain system feeds into a holding
tank and that pipes then run to a treatment facility before the material is discharged to the
environment. This treatment system reportedly removes uranium contamination to a
level approved by the State of Ohio before discharge at a permitted outfall. However,
some site employees informed us there are some indicators that the pipes under the soil
washing facility and other buildings at the Extrusion Plant may be cracked. The site
employees contacted were unable to locate any evidence that the pipes from tank 12 or
other underground wastewater pipes have been internally inspected to determine their
integrity. In light of the fact that radioactive contaminated liquid is being routed through
the pipes, and due to the Department’s liability for cleaning up contamination at the
Extrusion Plant Site, we believe that Ohio Field Office management may want to take
appropriate action to address the regulatory and liability considerations of this situation.

Please advise this office within 30 days of any action taken or planned with respect to the
information provided in the Letter Report. This inspection was conducted in accordance
with the “Quality Standards for Inspections” issued by the President’s Council on
Integrity and Efficiency.

We appreciate the cooperation we have received from your staff during this inspection.
Should you have any questions concerning this review, please contact me on
(202) 586-4109, or David Sumner, Inspections Team Leader for the Eastern Region, on
(865) 576-7839.




Attachments

cc:   Acting Assistant Secretary for Environment, Safety and Health
      Acting Assistant Secretary for Environmental Management
                                                                            Attachment 1 of 2


  Partial Inventory of DOE Storeroom at Ashtabula Environmental
                        Management Project

In most, but not all, cases specific amounts of liquids and quantities of consumables were not
recorded. However, amounts and conditions are generally reflected in the attached
photographs of the area. The Inspector noted the following conditions and materials:

CONDITIONS

Corroded 480 volt electrical switch boxes (multiple boxes), untagged and unlocked
Corroded fire sprinkler heads

MATERIALS

Flammable/Combustible and Potentially Hazardous Products
2 gasoline cans, partially full and containing vapors (stored next to heater)
25 gallons (5 individual 5-gallon cans) of “Eco Guard” liquid marked “Flammable”
 (stored underneath an operating wall mounted heater)
Hose Lubricant – labeled “Class IIIB Combustible”
Mobil synthetic gear oil (SHC 629)
Transmission oil (HDW-90)
Used florescent light bulbs (multiple tubes)                  Drive train oil
Hydraulic oil                                                 Spray paint
Deck stain                                                    Black top tar
Brake fluid                                                   Roof sealer

Paper Products (Fire Fuel Sources)
Approximately 21 pallets of copy paper with approximately 40 boxes per pallet, some boxes
  marked “Legal” size and others marked “3-hole punch” size, and others letter size
Multiple cardboard boxes of protective coveralls stacked against an operating baseboard type
  wall heater
Paper towels                                               Bath tissue
2-ply dinner napkins                                       File folders
Legal pads                                                 Boxes marked “air filters”
Wax drinking cups

Equipment
Multiple opened and unopened boxes marked “Eberline,” “Berthold,” and “Ludlum”
containing multiple units of radiation detection equipment that were tagged “out of service,”
some dated 1994
2 “Clessele” chart recorders
1 computer printer marked “Sensitive”
2 compressed gas type tanks marked “Sensitive” and labeled “Methane/Argon Gas”
2 large crates containing a satellite teleconferencing system
                                Attachment 2 of 2




1. The photograph to the left shows a
   view of the DOE storeroom at
   Ashtabula and pallets of copy paper,
   approximately 21, with each pallet
   holding approximately 40 boxes.
   Note the operating heater in the top
   right corner of the photograph. An
   inspection of the copy paper found it
   to be covered with grime, with many
   boxes being “3-hole” type and many
   boxes being “legal size.”




2. The photograph to the left shows a
   view of the DOE storeroom as seen by
   one entering thorough the main door.
   In the center of the photo is a fire
   cabinet marked “Flammable Keep Fire
   Away.” There is a heater above the
   cabinet and heater directly opposite
   cabinet in upper right of photo. In the
   floor, stored in the open and not inside
   a protective cabinet, are
   flammable/combustible containers
   which include black top tar, paint,
   deck stain, and roof sealer. There are
   additional items stored on top of
   cabinet. Finally, note that on the left
   side of the photo, is a stack of
   cardboard boxes containing paper
   products.
  3. The photograph above shows a view the DOE storeroom. Shown
     are pallets holding hose lubricant, transmission and drive train oil,
     gasoline cans, hydraulic oil, and brake fluid. In the upper left, just
     in front of the gasoline can on the left, is a floor heater bearing a
     warning that it should not be near flammable materials.




4. Photograph above shows combustible/flammable liquids stored in DOE
   storeroom in front of heater. Heater was “hard wired” into the wall. Note
   that heater bears a sign reading “Do Not Set Heater Near Flammables.”
        5. Photograph on left
           shows an expanded
           view of the previous
           photograph. Note
           heater, gasoline cans,
           and proximity to
           electrical cabinets
           behind the pallet.
           Behind the pallet is a
           door leading to
           another area of the
           storeroom where
           cardboard boxes of
           equipment is stored.




6. Photograph on left shows close-
   up of wiring of a ceiling heater
   that is positioned above the fire
   cabinet in the DOE storeroom.
   Note that the wire is not in
   conduit, the wire runs through the
   metal structure, and the wire
   appears to be kinked.
  7.   The photograph to the left shows
       conditions in a small closet type
       room that opens off the DOE
       storeroom. Multiple boxes of paper
       were present with papers in the
       floor. This material all contributes
       to the fire fuel load in the DOE
       storeroom. The Inspector was told
       by the Earthline property and
       records manager that these
       documents were the property of
       Earthline’s parent company, RMI
       Titanium, of Niles, Ohio. The
       property and records manager did
       not believe that DOE was paying for
       the storage of these non-DOE
       records. However, when briefing
       the DOE site manager on the
       storeroom conditions he disagreed
       and he stated these records were
       being stored in space leased and
       paid for by DOE. A master drawing
       of DOE leased space in Earthline’s
       Plant 2 appears to confirm the site
       manager’s belief.


8. Photograph at left shows one
   example of several 480-volt
   electrical boxes located in the DOE
   storeroom. Note that the door on
   the box is partly open, and the box
   itself is corroded. There is no tag or
   lock present on the box to indicate
   whether or not it is electrically
   energized, or to indicate what
   device, if any, the box operates.
 9.   Photograph at left
      shows a wide view of
      the wastewater
      treatment plant obtained
      from Grand Junction,
      CO, in 1999. This
      wastewater plant is now
      stored on Earthline
      property in Plant 2.




10. Photograph at
    left shows a
    closeup of resin
    column of
    wastewater
    treatment plant
    with yellow dust
    substance caked
    within.




  11. Photograph at left
      shows a closeup
      of wastewater
      treatment plant
      tank containing
      Barium residue.
12. Photograph at left
    shows leak of
    suspected radioactive
    liquid known as
    “liquor” from
    evaporator tank 12 in
    Department’s Soil
    Washing Plant at
    Ashtabula.




13. Photograph at left
    shows a different view
    of leak from tank 12
    and illustrates
    proximity to floor
    drain.




  14. Photograph at left
      shows closeup of
      seepage from
      underneath tank 12
      following cleanup.
      Note seepage is
      entering floor drain.
